             United States Department of the Interior
                             Office of Inspector General
                              Washington, D.C. 20240



                                                                          January 7, 2004




Memorandum

To:        Director, Minerals Management Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the Minerals Management
         Service’s Fiscal Year 2003 Financial Statements
         (Report No. E-IN-MMS-0036-2004)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm to audit the Minerals Management Service’s (MMS) financial statements
as of September 30, 2003. In conjunction with its audit, KPMG noted certain matters
involving internal controls and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on MMS’s financial statements
(Report No. E-IN-MMS-0066-2003) and do not constitute reportable conditions as
defined by the American Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment

cc:     Assistant Secretary for Land and Minerals Management
        Chief Financial Officer, Minerals Management Service
        Director, Office of Financial Management
        Audit Liaison Officer, Land and Minerals Management
        Audit Liaison Officer, Minerals Management Service
        Focus Leader for Management Control and Audit Followup,
         Office of Financial Management
                 2001 M Street, NW
                 Washington, DC 20036




November 14, 2003


Office of Inspector General and Director of Minerals Management Service,
U.S. Department of the Interior:

We have audited the consolidated balance sheets of the Minerals Management Service (MMS) as of
September 30, 2003 and 2002, and the related consolidated statements of net cost, consolidated statements
of changes in net position, combined statements of budgetary resources, consolidated statements of
financing, and consolidated statements of custodial activity for the years then ended, and have issued our
report thereon dated November 14, 2003. In planning and performing our audit of the above financial
statements of the MMS, we considered internal control in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements. An audit does not include examining the
effectiveness of internal control and does not provide assurance on internal control. We have not
considered internal control since the date of our report.

During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies and are summarized as follows.

1. Improve Contingency Controls
    MMS does not have documentation indicating that MMS tested its Uninterruptible Power Supplies
    (UPS) within Buildings 53, 85, and 85A of its Denver office locations. Back-up power helps recover
    data and minimize disruptions of service in the event of power failure.
    Recommendation

    We recommend that MMS perform the following steps to ensure continuity of operations in the event
    of a sudden and unexpected loss of power:

        a.   Test the UPS, document the results of test, and maintain documentation for future reference.
        b.   Test generators as part of appropriate contingency planning procedures or confirm testing
             with the parties responsible for maintaining the generators.




                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                a member of KPMG International, a Swiss association.
2. Improve Controls over Invoice Data Entry

    MMS did not always accurately enter data for vendor invoices into the Advanced Budget/Accounting
    Control and Information System (ABACIS). We noted, in some instances, MMS entered the incorrect
    beginning and ending period of performance dates into ABACIS. MMS utilizes the period of
    performance dates in preparing the accounts payable accrual calculation. Although the incorrect period
    of performance dates that we identified did not have an effect on the accrual calculation because of the
    relationship of the date entered and the accrual date, the entry of incorrect dates can cause an
    overstatement or understatement in the accrual calculation.
    Recommendation

    We recommend that MMS enhance its review process to identify and correct ABACIS data entry
    errors.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the MMS gained during our audit to make comments and suggestions
that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

This report is intended for the information and use of MMS’s management, U.S. Department of the
Interior’s management, the U.S. Department of the Interior’s Office of Inspector General, the Office of
Management and Budget, the General Accounting Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.

Very truly yours,




                                                     2
